WAIVER

Supreme Court of the United States

No. 20-663
Peter R. Culpepper ve Provectus Biopharmaceuticals, Inc.
(Petitioner) (Respondent)

1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless
one is requested by the Court.

Please check the appropriate boxes:
Le Please enter my appearance as Counsel of Record for all respondents.

0 There are multiple respondents, and I do not represent all respondents, Please enter my
appearance as Counsel of Record for the following respondent(s):

 

 

ean a member of the Bar of the Supreme Court of the United States.

G Tam not presently a member of the Bar of this Court. Should a response be requested,

the response will be by a Bar member. =~

Date: 12+]. 2020

(Type or print) Name. enie a. £ ey Ces .

OMs. O Mrs. O Miss
Baer: Dis “Dedlel 4oal
Addres24| Commegoe OT, Se. Boo
City & State NACI IE TAN DT 201

rione (1B. [Do [227

SEND A COPY OF THIS FORM TO PETITIONER'S COUNSEL OR TO PETITIONER IF
PRO SE, PLEASE INDICATE BELOW THE NAMK(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Me. ferer. CuLfefier

Ftoo Colne fae LANE
Kal eg Le , TA 3192e

Obtain status of case on the docket. By phone at 202-479-3034 or via the internet at
http://www.supremecourtus.gov. Have the Supreme Court docket number available.

   
  
 

Signature

 
